<html>
<title> - DISAPPEARED IN TURKMENISTAN’S PRISONS: ARE THEY STILL ALIVE?</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


113th Congress 				    Printed for the use of the 
2d Session				    Commission on Security and Cooperation in Europe
_____________________________________________________________________________________________                                            
.                                            

                                  DISAPPEARED IN 
                        TURKMENISTAN'S PRISONS: ARE 
                              THEY STILL ALIVE?

                
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                           FEBRUARY 20, 2014


                            Briefing of the
            Commission on Security and Cooperation in Europe

                            Washington: 2015
                                     

            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ffcecfcfadff2fef6f3b1f7f0eaecfab1f8f0e9">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners
                      
                      
                      
                      
                 SENATE					HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,			CHRISTOPHER SMITH, New Jersey,
  Chairman					 Co-Chairman
        
 SHELDON WHITEHOUSE, Rhode Island		JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico				ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire			PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut			MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi			ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia			LOUISE McINTOSH SLAUGHTER,
						 New York
JOHN BOOZMAN, Arkansas				MIKE McINTYRE, North Carolina
						STEVE COHEN, Tennessee


                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

      DISAPPEARED IN TURKMENISTAN'S PRISONS: ARE THEY STILL ALIVE?

                                  ------------

                               February 20, 2014

                                   WITNESSES

                                                                   Page
Rachel Denber, Deputy Director, Europe and Central Asia Division, Human 
Rights Watch...........................................................
                                                                      3
Catherine Fitzpatrick, Independent Expert on Eurasia...................
                                                                      5
Peter Zalmayev, Director, Eurasia Democracy Initiative.................
                                                                      9
Kate Watters, Executive Director, Crude Accountability.................
                                                                     11
Boris Shikhmuradov, Editor, Gundogar.org...............................
                                                                     15

                                  PARTICIPANT

Janice Helwig, Policy Advisor, Commission on Security and Cooperation 
in Europe..............................................................
                                                                      1

                                  (iv)


      DISAPPEARED IN TURKMENISTAN'S PRISONS: ARE THEY STILL ALIVE?

                              ------------

                           February 20, 2014

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 3:02 to 4:46 p.m. EST in 122 Cannon 
House Office Building, Washington D.C., Janice Helwig, Policy Advisor, 
CSCE, presiding.
    Ms. Helwig. OK, everyone, welcome. I think we'll go ahead and get 
started. I'd like to welcome you all today on behalf of the Helsinki 
Commission for this briefing on ``Disappeared in Turkmenistan's 
Prisons: Are They still Alive?'' I think most of you know that 10 years 
ago, 10 OSCE countries invoked the Moscow Mechanism against 
Turkmenistan out of concern over hundreds of arrests in the wake of an 
alleged failed coup attempt. These cases were detailed in the resulting 
report by Moscow Mechanism rapporteur Emmanuel Decaux, who, by the way 
is now head of the U.N. Committee on Enforced Disappearances. Many of 
these individuals remain unaccounted for, and other individuals 
imprisoned since then have also been disappeared. The Helsinki 
Commission has continued, over the years, to raise these cases and to 
ask for information from the government of Turkmenistan on the health 
and whereabouts of these individuals. Since the Moscow Mechanism was 
invoked, the United States has also raised this issue every year at the 
OSCE Human Dimension Implementation meeting in Warsaw in a special 
statement. I'd just like to also say, on a personal note, that I would 
very much like to know what has happened to former Foreign Minister 
Batyr Berdyev, who I knew very well when he was the Turkmen ambassador 
to the OSCE in Vienna. I remember him not only as a friend, but as a 
Turkmen official who was devoted to and concerned about his country. I 
did invite today the embassy of Turkmenistan. I don't think there's 
anybody here. Perhaps they will come later. So what I will start out 
with is introducing all of our panelists now, and then after they all 
speak, we're going to open the floor for comments and questions from 
you all, so you can be thinking about anything you might like to ask or 
say while they're speaking.
    So first, we're going to hear from Rachel Denber, who is Deputy 
Director for Europe and Central Asia at Human Rights Watch, where she 
specializes in the countries of the former Soviet Union. Previously, 
she directed Human Rights Watch's Moscow office and did field research 
and advocacy in Russia, Georgia, Armenia, Azerbaijan, Kazakhstan, 
Uzbekistan, Estonia, Ukraine, Kyrgyzstan and Tajikistan. That's a lot. 
She has authored reports on a wide range of human rights issues 
throughout the region. She earned a bachelor's degree from Rutgers 
University in international relations and a master's degree in 
political science from Columbia University, where she studied at the 
Harriman Institute.
    Then we'll hear from Catherine Fitzpatrick, who is a veteran of the 
international human rights movement and has been active on human rights 
in Eurasia for 35 years. She is a New York-based consultant for a 
number of nonprofit human rights organizations, and has served as a 
public member on the U.S. delegation to several OSCE human dimension 
meetings. She has been a regular contributor of news articles and 
translations to a number of websites, including Radio Free Europe, 
Radio Liberty and EurasiaNet, and is currently a translator and writer 
for The Interpreter, which covers Russian and related regional media. 
She has followed Turkmenistan since 2005, edited a weekly newspaper on 
Turkmenistan from 2006 through 2012, and currently contributes 
regularly to Natural Gas Europe on developments in Turkmenistan's oil 
and gas sector. We'll hear from Peter Zalmayev, who is director of the 
Eurasia Democracy Initiative, an international nonprofit organization 
dedicated to the promotion of democracy and rule of law in post-
communist transitional societies of Eastern Europe and Central Europe, 
the Caucasus and Central Asia. He received his masters in international 
affairs from Columbia University's school of international and public 
affairs with a concentration in post-Soviet Eurasian studies. From 2000 
to 2006, he managed the Central Asia Caucasus program at the 
International League for Human Rights, and he now provides regular 
commentary to the U.S. international print and broadcast media on 
political, social and economic developments in the countries of the 
former Soviet Union. You may have also heard Peter's name because he is 
the one who directly asked president Berdimuhammedov at Columbia 
University in 2008 about the whereabouts of these individuals and 
whether they were still alive. Kate Watters is cofounder and executive 
director of Crude Accountability, an environmental and human rights 
nonprofit organization that works with natural resource-impacted 
communities in the Caspian and Black Sea regions. She works closely 
with activists in affected communities to develop strategies and 
campaigns for environmental and human rights protections on the local, 
national and international levels. She has conducted a wide variety of 
trainings and workshops, including on human rights awareness, popular 
epidemiology, and community air monitoring. She has also trained local 
activists to understand compliance and accountability mechanisms at the 
World Bank and other international financial institutions. She is the 
author of numerous reports and articles on civil society in Central 
Asia and the Caspian region and has been interviewed for print media, 
radio and television with regard to environment, oil and gas and human 
rights in the Caspian and Black Sea regions.
    Then finally, we'll hear from Mr. Boris Shikhmuradov who is the 
editor of Gundogar News Service, which provides independent news about 
Turkmenistan. Boris is also the son of Boris Shikhmuradov the former 
foreign minister turned opposition figure who was imprisoned in 2002 
following an alleged coup attempt to overthrow the government of 
Turkmenistan. Boris Shikhmuradov Senior has been disappeared in 
Turkmenistan's prison system since December 2002, and his family has 
not heard any word about his fate since then. Boris and his family have 
been working to find information about his father for the past 12 
years, including appealing to international organizations, such as the 
United Nations and the OSCE. Boris is in Washington, D.C. today just to 
participate on this panel, and we truly appreciate his taking the time 
to come and speak with us. So with that, Rachel, I will turn it over to 
you.
    Ms. Denber. Hi. Thank you so much. Janice, thank you for inviting 
me to join this really important panel. I thought that we would start 
by painting kind of a broad picture of Turkmenistan, and to help 
understand why it is that there can be a government that allows a 
situation to happen whereby people just disappear in its prison system 
and where the government denies--refuses to provide any information 
about their health or their whereabouts to the loved ones.
    How could it be that a government would refuse to even acknowledge 
whether persons in their custody are even dead or alive? I mean, that 
is--that should be--that is an extremely--it's an atrocity. It should 
boggle our minds how something like that can happen. What kind of 
government would allow that to happen? So I'd like to just talk a 
little bit about what kind of government the Turkmen government is and 
to provide a context and help you understand how these circumstances 
could actually be. So I think many people have no trouble identifying 
what kind of government North Korea is. When you hear the country name 
``North Korea,'' you automatically identify it as--this is one of the 
most closed, totalitarian governments in the world. It's one of the 
most closed countries in the world, one of the most repressive 
countries in the world. Am I right? When I say North Korea, you--
everybody automatically knows what you're talking about. But when you 
say Turkmenistan, most people--even many policymakers who should know 
better just sort of scratch their heads and say, where? Isn't that the 
place with the crazy dictator who had the statue that went this way and 
that way, the revolving--most associations people had with 
Turkmenistan, unfortunately, date from the Niyazov period where during 
the presidency of Saparmurat Niyazov, who had a grotesque personality 
cult. The country was mostly associated with the excesses of his 
personality cult, with the gold statues he built to himself, the 
renaming of the months after his family members, after the renaming of 
days after his family members. Probably one of the most grotesque 
personality cults in the modern era.
    After Niyazov died in 2006 and was replaced by Gurbanguly 
Berdimuhammedov, there was a very brief period when people thought 
maybe there could be some winds of change, but those hopes were very, 
very quickly dashed, and I think Turkmenistan sort of fell into a--kind 
of a blank space. On the one hand, you have the government under 
Berdimuhammedov seeking more external contact, so you saw 
Berdimuhammedov go on trips abroad, which Niyazov almost never did.
    There was a rotating--a revolving door of diplomats and businessmen 
going into--going into Turkmenistan. It's a level of contact that I 
think was not the case during the Niyazov period. It seems, to the 
external world, and I think, especially to policymakers who were very 
eager to reap the benefits of Turkmenistan's hydrocarbon wealth, it 
seemed like that this was a time of opening and a time of potential 
engagement. But really, very little has changed since Niyazov's death. 
If anything, the only thing that's changed, maybe, are the statues and 
the portraits. Berdimuhammedov has been busy building his own cult of 
personality. Turkmenistan remains one of the--one of the most closed 
and repressive governments in the world. There is increased contact 
between Turkmenistan and the international community, but none of that 
has to do with human rights. There is no change in Turkmenistan's 
stature as a country where there is absolutely no independent scrutiny 
of its human rights situation--none. Ten special--United Nations human 
rights monitors. Ten of them have requested permission to visit the 
country. All 10 are waiting for their invitations from the Turkmen 
government. Human Rights Watch has not been to Turkmenistan since 1999 
because the government won't give us visas even when we have left our 
passports at the embassy for lengthy periods of time.
    It's closed to external scrutiny; Turkmenistan is also very much 
closed to internal scrutiny. This is a government that does not 
tolerate even the most mild criticism. Not from within its own ranks, 
certainly not from outside its ranks. There is no freedom of 
expression. There is no free media. The idea of an independent 
nongovernmental organization is basically unheard of.
    There are a couple of activists who are--who operate very, very 
much under the radar who are able to get information about human rights 
violations. They do that, really, at their own peril. The rare 
journalists or reporters who are stringers for foreign news outlets put 
their lives and their safety in jeopardy when they do that. About every 
year we hear about a correspondent or a reporter for Radio Free Europe, 
Radio Liberty, getting arrested, getting detained, getting harassed. 
Unregistered nongovernmental organization activity is criminalized in 
Turkmenistan. In order to get a foreign grant an NGO basically has to 
go through five layers of approvals by the Turkmen government. 
Obviously any kind of real alternative political parties are out of the 
question.
    There was a great deal of--a great deal of hullabaloo made when 
the--when a supposedly alternative political party was created at the 
end of last year, but this party is led by a crony of Berdimuhammedov, 
so I don't think that we should read too much into that.
    But I think that--I think that too often international actors, 
particularly international financial institutions and the like, who are 
trying very hard to see some positive movement in Turkmenistan for 
their own interests, tend to look at these changes like the 
introduction of a new political party or a second political party and a 
new law on the media that was adopted recently as some kind of 
harbinger of change. But in fact, it's window dressing. It is not real 
change.
    Turkmenistan is one of the few countries that still retain--that 
still prevent foreign travel abroad absolutely arbitrarily. For several 
years now the Turkmen migration authorities have prevented people from 
leaving the country for study abroad, they have prevented relatives, 
and family circles of inconvenient persons whether they are exiled 
political opposition people or other people who are just inconvenient 
to the government.
    They prevent these people from leaving the country. There are every 
year there seem to be students who have difficulty leaving the country 
to complete their travel abroad in various different countries. It's 
not at all unheard of to be actually pulled off the airplane by 
migration officials as you're trying to leave the country. So if you're 
anybody who has any kind of connection to suspicious people or if 
you're going to suspicious countries, your ability to travel abroad is 
in question.
    I want to say a couple more words about Berdimuhammedov's cult of 
personality and the degree to which the country is ruled by--absolutely 
ruled by him and his cronies. Whenever Berdimuhammedov travels to the 
regions and when--and makes public appearances, the government 
mobilizes, local authorities mobilize local citizens to come, to attend 
rallies, to praise the government. These can be kind of traumatic 
experiences. People have to come and praise him in unison. Once you're 
in the venue, you're not allowed to leave until the president leaves.
    I think one indicator of the degree to which he's trying to 
cultivate this image for himself and the lack of any kind of media 
freedom, I think many of you probably heard about an incident last year 
with Berdimuhammedov. You all know how important horses are and horse 
racing is in Turkmen culture. Berdimuhammedov was participating in a 
hippodrome race.
    Of course, his horse was supposed to win. But as one person joked, 
his horse was afraid of coming over the finish line before he actually 
did and he fell off the horse. This was caught on video, there were 
many journalists there. Because this was the president at the--at the 
hippodrome. As soon as he fell off the horse, people were stunned.
    Secret service people came out from all around to take away 
everyone's video cameras because this was not supposed to appear on the 
news at all. And it was--it was--otherwise This is Berdimuhammedov, his 
appearance would have been all over the Turkmen news. One person was 
able to smuggle out a film. It was quite shocking.
    This is an environment where--and I won't talk about this because I 
know Cathy Fitzpatrick will, where the government makes use of the 
criminal justice system to deal with inconvenient people, to deal with 
political rivals. The criminal justice system is used in political ways 
all the time.
    Unfortunately, because human rights organizations can't operate in 
an open environment it is extremely difficult to get information about 
the circumstances under which people are detained, the circumstances 
under which they're charged and the circumstances under which they are 
sent for long years to prison.
    The last point I wanted to make is that this is also an environment 
where there is no freedom of religion, or freedom of religion is 
extremely--is highly curtailed. There are--particularly--not only, but 
particularly for Protestant and Baptist religious confessions where 
there are numerous instances where they are harassed by their local 
governments, where they are not only prevented from gathering and 
worshiping, but where they are actively persecuted and threatened. So 
this is just the big picture of a country where people can disappear 
into the prison system.
    Ms. Helwig. Thank you, Rachel. So we'll turn it over to Cathy next.
    Ms. Fitzpatrick. Thank you, Janice. I'm Cathy Fitzpatrick. I'm 
going to talk about the climate of fear that's created in the 
government by the constant harassment and bullying of officials and 
then their disappearance--jailing, disappearance and sometimes re-
emergence, which keeps everyone off-balance. I sometimes think 
Turkmenistan is kind of like a hologram, that if you break off any 
piece of it, it will just keep replicating because the patterns and the 
structures of that kind of society are so hard to change.
    Commonly, we think that the problem is that there's this cult of 
personality, that if we just take out the persona--and he's not really 
so personable--Berdimuhammedov, that we'll change the whole system. 
That was the theory about Niyazov, but it replicates because it really 
isn't so much the cult of personality as it is the fact that all 
decisions are wired to come to that figure and that office. I mean, 
everything from whether a gas field is sold or leased to a foreign 
country or company to the pattern on a schoolgirl's uniform, the shape 
of a box hedge, all of those decisions are coming by serial processing 
to the president.
    It makes it very hard to change the society because there's no 
group that can show initiative. It reminds me of the Soviet period 
when, around 1991 I visited. A KGB officer told us that people were so 
afraid of starting perestroika that the KGB itself had to start it and 
pose as businessmen. That, of course, had a terrible effect. If you 
look for sectors in the society that could bring about change, it's 
hard to know where to find them because they've been kept so 
terrorized.
    Probably the most insecure job in the country is the national 
security chief. That person has been changed numerous times. The 
second-most changed officials are in the oil and gas sector. Just last 
month the president issued strict reprimands, as they call them in 
Turkmen--strict reprimands to Yaylym Berdiev, the minister of national 
security, and Dovrangeldy Bayramov, the chairman of the state migration 
service. He called them on the carpet for lax oversight--it's always 
the same formula--shortcomings in their work. About what? Could it have 
been related to the issue of Afghanistan and the spillover, the issue--
when you tie together this--national security and federal migration? 
Could it be related to Iran? We don't know, and we may never know 
because they will never tell us; they just have these vague televised 
reprimands and newspaper accounts, and then the person disappears.
    It's often been noted that the foreign minister, Rashid Meredov, is 
the last man standing from the previous dictator's Cabinet. Then the 
question is, why would he still be there? I mean, his fate contrasts so 
much with Shikhmuradov's fate. It's almost as if they need to have one 
familiar face, especially for dealing with foreigners, because 
foreigners would really begin to wonder what's going on with this 
government if they didn't have at least one person they could orient 
themselves towards.
    As Rachel was saying, it's not like North Korea. They're not 
executing people on TV. But in some ways, it has a more--a long-term 
worse effect by disappearing people. They're out of view, the public 
forgets them, but the internal life of the regime is very much 
terrorized because they know those people are disappeared, and they 
don't forget them.
    The whole way that Berdimuhammedov came to power was by--the 
constitutional system was set up that the speaker, so-called speaker of 
parliament--which is just a rubber-stamp parliament--he was supposed to 
be the interim leader after the death of Niyazov. It's not much of a 
democratic structure, but even that pretext of democracy had to be 
trampled by this coup, essentially. So what Berdimuhammedov did was he 
saw that this man had a family tragedy where his son's wife had 
committed suicide. They brought charges against this man blaming him 
for the suicide. They also claimed he had abused his office.
    As often happens, as Rachel has mentioned, they have the family 
plan. One person is in jail; they bring the whole family, put them in 
jail too, mainly so that they won't become like the mothers of the 
Plaza de Mayo or some kind of, you know, relatives group that's going 
to start to agitate and bring attention to their--to the fate of their 
loved ones and put them in jail too.
    What's curious is that the speaker of parliament was sentenced to 
five years, and then all of sudden, in March 2012, at the--at the U.N. 
in New York when there was a section of the U.N. Human Rights 
Committee, the deputy foreign minister announced that Atayev and his 
wife were released and that they had been released for a while. But no 
one had seen them, and we still can't really confirm what happened to 
them. We were told that this was a kind of gift to the U.N., that this 
case had been raised many times--and it actually shows why it's 
important to raise cases because they do eventually act on them, but 
it's not much a gift if the man isn't free.
    There are concentric circles around that case because 
Berdimuhammedov also had to dismiss the prosecutor, the prosecutor that 
he had conspired to set up a tie on the fake charges. That man knew too 
much; he had to go. Then it's often in the Stalinist mode that first it 
starts up with those who knew too much, and then the circles of those 
who knew about those who disappeared and those who had reports, and 
then it goes so far that pretty soon, you have the entire system, half 
of them are in jail.
    I want to mention another figure from the Niyazov regime who was 
disappeared in the first few days after he came to power, and that's 
Lieutenant General who was the chief of the presidential security 
service and his son and another associated businessman. Usually the way 
it's described, that he was some kind of kingmaker, or he was part of 
the sort of palace coup that brought this dentist to power. But it 
could have just been a business dealing. We don't know. I mean, often 
there is very mundane reasons for the way these governments work; they 
just have some kind of, caper in Qatar or Turkey or something, and 
somebody has an offshore business and, that's a part of where they send 
offshore the funds, and the people are arrested because they know too 
much. That man is rumored dead, and no one knows what has happened to 
him. Another case of concern is Gulgedy Annaniyazov. He was arrested 
and then eventually released, went to Norway, got asylum and then had 
the bad judgment to return to Turkmenistan and be arrested. Lot of 
people have been trying to get him out since, notably Norway itself. 
The U.N. working group on arbitrary detention has issued an opinion 
that, you know, his case is a violation of human rights, and let's hope 
that that will eventually help to get more information about him. No 
information's been received since 2009 when he asked for a pair of 
glasses. We don't know what happened.
    Last year the European parliamentary member Leonidas Donskis 
together with 23 colleagues signed a letter to the Turkmen ambassador, 
and he included Annaniyazov's case and also two--the case of two 
popular YouTube singers who were--who were arrested because their songs 
seemed a little too much rabble-rousing. They had the word ``awake'' in 
them--awake, awake, Turkmenistan. That was thought, you know, to be, 
sort of Orange Revolution material. Those two were arrested. That 
appeal did lead to their release. It shows why those kinds of appeals 
are worth doing.
    I just want to mention one other--two other cases, if I have a 
minute. One is the main interlocutor for all these billion-dollar oil 
and gas deals. I mean, this is a tremendous amount of business of all 
of these companies of China and Germany that actually have deals with 
Turkmenistan, and U.S. is always trying to get a deal there. Chevron is 
always in talks, but--in the promise that they're going to get a lease, 
an oil field that they can drill, but they never do. Most of the oil 
and gas businesses is really now in the hands of China and to some 
extent Malaysia and a little bit of Germany.
    But all those billions of dollars are all--were all in the hands of 
one fellow named Tadgberdy Tagiyev. He was very well-known. He was in 
every meeting. He was in the--in the Czechs' energy summit in 2009. 
Then he was last seen going to China, similar to Shikhmuradov's case, 
where he went to China, tried to ask for more money from the Chinese, 
and then he was apparently arrested and disappeared. That was 2009. 
Disappeared.
    No one knew where he went. They didn't know if he was arrested for 
corruption. There were rumors that he was--his arrest was about the 
Chinese, that he would fail to get more money out of the Chinese and 
had to be punished. Another version of the story was that he knew the 
truth about the real size of the oil--the gas reserves in Turkmenistan 
and knew that the Western assessments of these were in fact based on 
both Soviet and Turkmen engineering studies that were inflated. That 
was a bit of a convoluted story.
    I think probably the Chinese story is more likely because 
Berdimuhammedov solved the problem of the Chinese by taking his son-in-
law. I mean, the family clan also works in the government, where they 
become so distrusting of officials, even in their own clan, even that 
they've spent their whole careers with, that they bring in their own 
family members and then tie them through blood ties into deals. That 
son-in-law was able to finish to complete the Chinese gas deal. 
However, he then fell from favor because he got caught in some kind of 
real estate scam in London.
    I mean, these kinds of stories, there is literally hundreds of 
them, and we can't even track them all, and these reprimands happen 
practically every week. Someone then disappears from view, and we don't 
know what happened to them.
    One final case that just came off the newswires recently was the 
man who was in charge of the horse breeding. Akhal-Tekeis is like the 
symbol of Turkmen nationhood, and it's also a rare recent breed that 
was prized. Rachel told us how the president was riding on the white 
horse that was from this breed.
    This man who used to be the director of this horse breeding 
program, Gelgik Girazov, he was arrested on grounds that no one could 
ever make sense of, and they seemed to be trumped up. He was tortured. 
He was sentenced. He then was released. There was a lot of intervention 
on his behalf from foreign diplomats who knew him and knew the farm. 
One sad aspect of it sometimes it takes animals dying to get people to 
care. People dying doesn't always work, I find, in this business, but 
the horses on the farm all died after he was arrested, and that caused 
people to be very concerned about this case, and he got a lot of 
attention. He was released, but now he's in very poor health. Broke his 
back when he was tortured. He's not allowed to leave for medical care 
abroad.
    There you have it. I think it's important to have businessmen raise 
these cases, even quietly, because, not just for human rights grounds, 
they should care for practical reasons that the people they're doing 
business with disappear and take the deal with them.
    One final comment is the WikiLeaks cases. It's going to be a very 
short comment because I'm not even going to list their names, although 
there are several cases that I'm working on, serious reprisals of 
people mentioned in WikiLeaks, that either their names were redacted or 
their profiles were such that you could detect who they were. These 
people have been harmed. It's often said that there's no harm from 
WikiLeaks, by the supporters, but that's because the people who have 
been mentioned in WikiLeaks don't want to get up and paint a target on 
their back and say, hi, I've been mentioned in WikiLeaks so hit me 
again, OK?
    If you're in Turkmenistan and you are mentioned in those cables, 
you hope maybe no one will notice or you don't want to draw attention 
to yourself. You can't publicize these cases but they are working their 
way through. Eventually I think we will see there's a lot more damage 
than has been reported, because you have to look at not just human 
rights activists but a whole variety of people who brought information 
from the U.S. Embassy of various kinds, some of them about human 
rights, some of it about oil and gas, all kinds of issues, and what's 
happened with them as a result of this publication. Thanks.
    Ms. Helwig. Thank you, Cathy.
    Peter.
    Mr. Zalmayev. I'm going to talk a little bit about the current 
potential leverage of individual governments with respect to 
Turkmenistan.
    More than 10 years ago now the Turkmen courts handed down lengthy 
prison sentences to a group of alleged participants in an alleged 
assassination attempt on President Nizayov's life. The short trials 
lasted a few hours at most. To this date the very minimal demands of 
the international community, which Rachel characterized as an atrocity, 
have not been met, and that is to tell anything to the relatives and 
loved ones and their former colleagues about the well-being of these 
prisoners and to allow the Red Cross to visit that group of prisoners 
at all. The Turkmen officials have never offered voluntary comments as 
to the status of its prisoners other than a very surprise question that 
was put to the president in 2008 at Columbia University.
    The case of Turkmenistan's intransigence on issue presents a 
curious confluence of various factors, among them the international 
institutions' lack of enforcement mechanisms, the foreign governments' 
lack of political will to intervene, the relative obscurity of 
Turkmenistan's geopolitical position, and finally the apparent interest 
in maintaining the status quo by foreign companies that are present in 
Turkmenistan.
    There has been much carrot and very little stick in the 
international approach to Turkmenistan, with the exception of a few 
isolated cases, including the release from prison of several activists. 
The Turkmen government has not budged on any of these. The picture is 
pretty dire. Institutions have been reduced to paying mere lip service 
to the need to abide by international human rights obligations, and 
there's very little appetite for the few tricks left in the bag to be 
deployed, and the main one being political pressure, direct legal 
pressure from governments.
    As a consensus-based organization, the OSCE was instrumental 10 
years ago in 2003 when it invoked its investigative Moscow Mechanism, 
which resulted in a comprehensive report prepared by a special 
appointed rapporteur who was actually barred from visiting the country. 
Since then the organization has been futilely pointing to the document 
in trying to reason with its recalcitrant member, often being found in 
a very humiliating position of lecturing to an empty chair, which 
Turkmenistan has, for many years now, neglected in an apparent show of 
contempt to send its representative to the OSCE's annual Human 
Dimension meetings in Warsaw.
    In a situation where the organization's very charter cannot be 
enforced even though such a symbolic gesture as, let's say, its 
temporary suspension--which is what the Council of Europe, for example, 
did with Belarus in '97, in Russia in 2000--what mechanisms of 
encouraging good behavior is left? In a situation when the 
organization's budget for its office in Ashgabat is pretty much unspent 
and the--its very mission is under de facto quarantine by the 
government, what can one talk about with respect to engagement and a 
dialogue? I'm afraid we can't, and with each passing day the OSCE is 
sinking further into the pool of irrelevance where it's been getting 
mired for quite some time now.
    This pessimistic impression of mine was vividly reconfirmed when I 
visited last week the site of the Moscow Mechanism which took place in 
Vienna on the sidelines of the winter session of the OSCE Parliamentary 
Assembly. Though I have to say kudos to members of the coalition--
proved that they are a live campaign--who organized the event, it 
seemed to be business as usual when you looked around the room at the 
sleepy lunchroom--lunchtime faces of the OSCE bureaucrats as usual not 
willing to rock any boats and as usual happy to feed on the steady diet 
of cooperation and dialogue language.
    The U.N., with its myriad institutions, finds itself in a similarly 
unenviable position of having its frequent attempts at intervention 
wholly ignored, whether the conclusions of its Universal Periodic 
Review Working Group in Geneva, which works under the auspices of the 
Human Rights Council, or the special rapporteurs that Rachel has 
mentioned, who have been, each one of them, denied access to the 
country.
    Turkmenistan's proclaimed policy of neutrality has allowed its 
government to play off the various sides to manage Russia and China on 
one end, the EU states and the United States on the other, which in 
effect it has hamstrung the latter in their attempts, however feeble, 
to bring about positive change in Turkmenistan. The EU's position has 
been that only dialogue and not ostracism can bring about good behavior 
and has engaged the Turkmen government under the interim trade 
agreement, consistently stopping short of signing the full-fledged 
Cooperation and Partnership Agreement, in large measure due to the 
vocal protests of human rights groups over the years.
    It certainly doesn't help the cause of democracy in Turkmenistan 
that the EU considers and continues to consider Turkmenistan as a vital 
alterative of energy supply bypassing Russia. So while lip service is 
paid to the need to develop democracy in Turkmenistan and to do 
something about its political prisoners, reflected most recently--and 
I'm using air quotes here--in its 2003 resolution of the European 
Parliament on the human rights situation in Turkmenistan and Central 
Asia.
    The official position, one that you find on the EU's website, 
states that: ``Recent years have shown a significant strengthening of 
the EU-Turkmenistan relations. The European Commission, via the overall 
policy dialogue of the development cooperation instrument, has 
reinforced its bilateral cooperation with Turkmenistan and is 
supporting the economic, social and institutional sector reforms 
announced by the Turkmen leadership.''
    Finally, in 2008 the new EU Special Representative for Central Asia 
Patricia Flor stated that she did not support setting in concrete 
benchmarks for progress on human rights in Central Asia as a foundation 
for the EU's relationships with states like Turkmenistan. So whereas 
the EU's influence in Turkmenistan is limited, Washington's is probably 
even smaller and dwindling. Although it presents all the right rhetoric 
that can be found in its annual human rights reports and in the 
interventions of the institution that it hosts, such as the Helsinki 
Commission, the U.S. has little strategic interest in Turkmenistan, and 
unfortunately little leverage to bring about any meaningful changes.
    What can the EU and the U.S. do? What can they do? What they can do 
is actually--is something that they will be most reluctant to do, and 
that is to raise the issues including that of the political prisoners, 
the group we are talking about today, directly in their bilateral 
engagements with the Turkmen government officials all the way up to the 
president; to exert pressure through companies which do business in 
Turkmenistan, including those taking part in the feeding frenzy of the 
country's vast and still underdeveloped gas industry; all of that while 
keeping in mind that introducing any sort of human rights benchmarks 
into dealings of these companies will probably further antagonize the 
Turkmen government and push it closer and make them embrace even more 
tightly their Russian and Chinese competitors, which are already 
predominant on the ground.
    Likewise, it is important to bring closer scrutiny to the dealings 
of banks such as Deutsche Bank and companies such as Daimler and 
Caterpillar and John Deere and others, to dissuade them from 
contributing to the stability of the regime and to its ideology. The 
precedent was set a few years ago when the Deutsche Bank account of the 
Turkmen government was investigated. It is reported to be under the 
sole and direct control of the president, and it is estimated to be 
around $20 billion. Also, several companies have been publicly exposed 
in shameful underwriting and translation into their language and 
publication of the former President Niyazov's spiritual guide Ruhnama. 
Daimler did that a few years ago and had to pay a pretty hefty price 
when it was the subject of a suit brought against it by the U.S. 
Justice Department.
    But limited sanctions must also be on the table in the form of a 
visa ban on high-level officials. With its trade embargo against Cuba 
still in place in the Magnitsky law, would it be that much of a stretch 
to consider some sort of a symbolic gesture against, and at the very 
least, equally bad human rights violator like Turkmenistan?
    Will these measures work? It's far from certain and I'm skeptical, 
to be frank, that they will. But it is certain that the current 
approach has failed and it is time to be--to stop paying lip service 
to--and hiding behind diplomatic language. Maybe it's time to 
acknowledge reality and to try something new.
    Ms. Helwig. Thank you.
    Kate.
    Ms. Watters. I'm Kate Watters, executive director of Crude 
Accountability. I'm going to take us from the sort of broader 
description of what Turkmenistan is, and appalling human rights 
situation there, to a very concrete campaign that my organization and 
Human Rights Watch is also involved with. 54 other organizations that 
are part of a group called the Turkmenistan Civic Solidarity Group have 
begun in the last six months. They're just called Prove They Are Alive. 
This is an effort--this is a campaign to try to do exactly what the 
title says, prove they are alive, to identify and to understand what 
the fates are of the dozens, maybe hundreds of people who have 
disappeared inside Turkmenistan's prison system since the 2000s.
    My colleagues have already described the situation so I won't go 
into a lot of the details, but all of the people who are--who we are 
researching and trying to identify in our campaign are people who have 
been missing for at least 10 years, they're people who had unfair 
trials if they had a trial at all. They were arrested and put into the 
prison system and have simply disappeared. Their families have not seen 
them. They have not been able to send them letters or packages. They 
have no information about their health.
    The people in the prison systems have had no access to medical 
care. They've had no access to legal representation. Although in some 
of the agreements that family members have from the Turkmen government, 
there are even stipulations about how many times a year they're 
supposed to be able to see their family members, in fact they have 
never seen them.
    For some of the family members, they had heard information that a 
year ago, maybe a year-and-a-half ago, that their family members who 
were nearing the ends of their terms, those who were serving shorter 
terms--10 years, 12 years--they were coming to the end of their term 
and the families were told that they would be getting good news soon. 
They all assumed that their family members would be released. A few 
months later most of those people--many of those people were informed 
that, in fact, their family member had had a fight with a guard, had 
done something in the prison system which had caused them to be 
resentenced. In one instance we know a family member was supposed to 
come out and then was resentenced to seven years more.
    In other instances, at the time when the family member should have 
heard information about their people, they simply heard nothing. There 
was this sort of rush of hope that maybe after this decade we're going 
to see our person, we're going to find information out about them, and 
then again nothing. This is tantamount to torture, never mind what's 
happening to the people inside the prison systems. For their family 
members, for their loved ones, for their colleagues even, this amounts 
to torture.
    Our campaign is not asking the Turkmen government to say that these 
people are political prisoners. We're not asking for fair trials. We're 
not asking them to release these people from prison even, although, 
frankly, all of those three demands would be perfectly reasonable in 
most of these circumstances. What we're asking for is simply 
information. It's a pretty low bar. It's a pretty low standard. We're 
asking the international community to support us--civil social 
organizations, governments, international organizations, businesses, 
people--human beings to stand up and say: Prove they are alive.
    We want to cooperate on the international level with various types 
of international institutions, as I mentioned, but we're also hoping to 
get into some kind of dialogue, as naive as it sounds, with the Turkmen 
government. We've written to the foreign minister a letter--you may 
have seen the materials outside. We've written to Minister Meredow. 
We've been waiting for almost four months now for a response. Because 
we haven't received a response, we have made that letter public. So you 
can feel free to take that letter, read it, send it--show it to people, 
because we believe that what has worsened this problem over time is the 
fact that it's not being spoken about publicly.
    There's a lot of effort on the diplomatic level, and we acknowledge 
that effort and we are grateful for that effort. We appreciate that 
effort and we believe that it is what's kept this issue on the table 
all of these years, but it's time to speak publicly. It's time to speak 
out in the world about what's happening in Turkmenistan. Why is it that 
we know about Korea? Why is it North Korea? Why is it that we know 
about Myanmar but we don't know about Turkmenistan?
    The disappearances that are happening in Turkmenistan and continue 
to happen in Turkmenistan are very similar to the kinds of 
disappearances that happened in Argentina in the 70s. People know about 
that. We want people to know about what's happening in Turkmenistan. 
We've invited the Turkmen government into dialogue and we're hoping 
that they will agree at some point to speak with us or with other 
intermediaries.
    At about the same time that all of these arrests happened in 2002, 
2003, the government also cracked down on civil society. Rachel talked 
about that. Cathy talked about that a little bit. But in 2003, the 
Turkmen government created a new NGO law, and that NGO law essentially 
required that every organization that had been operating reregister 
with the government so that they could continue to, you know, do 
whatever their humanitarian work was, their environmental work, their 
women's issues work, whatever it was, beekeepers--there were 
beekeepers.
    Everyone was forced to reregister. Not surprisingly, virtually 
every organization, when they went back with their new documents, was 
denied registration, which automatically made their work illegal. 
Initially it was a criminal offense to continue to work as a civil 
society organization after that law was changed. The criminal piece was 
taken away but the damage was done.
    Civil society, which had been small but fledgling and growing in 
Turkmenistan was smashed down at just about the same time that all of 
this repression was happening in the political sphere. It had, as my 
colleagues have mentioned, the effect of really terrorizing the 
society, and that terror continues. That unknowing, that disappearing 
that you never know if it's going to be you or the guy sitting next to 
you, makes it very, very hard to speak out.
    The other piece, which Cathy also talked about, is this collective 
punishment. In 2002, when people were rounded up, they weren't just the 
people who were allegedly involved in this coup attempt, allegedly 
tried to assassinate the president. They were their family members, 
their friends, people they went to school with, people who lived near 
them, people who just happened to be there. They were swept up, taken 
away, and many of those people disappeared as well.
    So the pressure to speak out is enormous, and even for people who 
are outside of the country, if they have family members who are inside, 
they risk their family members, they risk their friends, they risk 
their schoolmates, they risk their former neighbors' health and safety. 
And sadly, President Berdimuhamedov has continued this tradition of 
authoritarian rule, of massive human rights violations and suppression 
of dissent, which Niyazov started all those years ago.
    So we believe that it's time to stop. It's time to stop this. It's 
time for the Turkmen government to join the international community of 
nations abiding by international human rights standards. It's time to 
stop the suffering of the families of the disappeared and it's time for 
the government of Turkmenistan to speak the truth about their fates.
    We've talked to the OSCE about this issue, both at the human 
dimensions meeting held in Warsaw in October of last year and at the 
Parliamentary Assembly, as my colleague mentioned, last week, which was 
held in Vienna. We've brought the case of specific families to the 
United Nations Working Group on Enforced and Involuntary 
Disappearances, and we're speaking here today with you, asking for 
international support for our campaign. As I mentioned, we've also 
written to the Minister of Foreign Affairs Rasit Meredow, and we have 
yet to hear from him.
    We've also been conducting a lot of research, and you see on the 
wall the faces of some of the disappeared. This is not a complete list, 
and as you can see, we don't yet have even photographs of many of the 
disappeared, even some of the very well-known people. We don't have a 
photograph of Batyr Berdyev, for example. It's very hard to find this 
information. In some cases there is a fair amount of information to be 
had; for example, the case of Boris Shikhmuradov and even information 
about Batyr Berdyev and some of the others who were connected with the 
alleged coup attack in 2002. Those cases are better documented than 
some of the others.
    But even in these instances, we have conflicting accounts, 
difficulty verifying information, and politically motivated 
information, which makes it challenging to put together a reliable 
narrative. So using these published materials in Russian and English 
that we've been able to find, as well as accounts from those who are 
willing to speak with us, we've been able to put together some of the 
stories. The biographies that we have are outside on the table, for 
anybody who's interested in reading them. Our goal is to document the 
names and the biographies of the disappeared as fully as we can and to 
publish that information.
    We're also working with various international governments to 
convince the Turkmen officials that speaking out about the disappeared 
is actually in their interest. We also hope that the international 
community will recognize its own responsibility and continue to push 
the government of Turkmenistan to honor its international obligations.
    As you've heard, Emmanuel Decaux, a professor who is the special 
rapporteur, issued a report in keeping with the Moscow mechanism, which 
is one of the mechanisms of the OSCE which allows for research into 
cases when there's been a violation. We believe that continuing to push 
for the information and the questions that were raised in Professor 
Decaux's report is really important. So in order to continue the 
efforts of Professor Decaux and all of those who have continued year in 
and year out to raise the questions about the disappeared and to push 
Turkmenistan to speak publicly, we have a few recommendations that are 
for the OSCE and for other international organizations and the United 
States government with regard to Turkmenistan.
    One is that we believe the Parliamentary Assembly of the OSCE 
should consider establishing a working group on Turkmenistan. It could 
also alternatively have a personal representative of the chair of the 
Parliamentary Assembly that would work on the human rights situation in 
Turkmenistan, and that person could be appointed.
    Secondly, the Parliamentary Assembly of the OSCE should adopt a 
resolution on Turkmenistan at its 2013 summer session or alternatively 
adopt a resolution on enforced disappearances and abductions in the 
OSCE region specifically referring to cases in Turkmenistan along with 
other countries, perhaps Belarus or, sadly, Ukraine comes to mind.
    Members of the Parliamentary Assembly delegations to the OSCE, 
including the United States, should urge their governments to put 
questions to the government of Turkmenistan on the status of the 
disappeared, the state of the investigation of the cases of the 
enforced disappearances, and they should request visits to see 
political prisoners. In addition, the U.S. government should consider--
should continue, excuse me, to raise the issue of the disappeared both 
publicly and privately in the diplomatic engagement with Turkmenistan. 
We know that privately the issue of the disappeared has been raised 
many times in internal discussions, and we know this has gone on for 
many years. But in addition, we believe that discussing the issue 
publicly is critical to obtaining a statement from the government about 
the status of the disappeared.
    The U.S. can play this role in its bilateral relationship with 
Turkmenistan and through the various international organizations to 
which it's a party, including the United Nations, the USCE and other 
humanitarian and even cultural organizations. UNESCO comes to mind, for 
example. Finally the role of the international financial institutions 
is one that can be used here, and I encourage governments to think 
about international financial institutions as well and to push them to 
include human rights standards overtly in their requirements for 
financing in Turkmenistan. The European Bank for Reconstruction and 
Development has done this by binding Article 1 to lending in 
Turkmenistan. This has had a very large impact on the way the 
institution operates in Turkmenistan. The World Bank, sadly, is lagging 
behind, but human rights organizations are pushing hard for overt human 
rights.
    With countries like Turkmenistan, this is really a critical and key 
piece because we know Turkmenistan doesn't need money from the West. It 
doesn't need money. It can go to China for money and go elsewhere for 
money. It has its own money, for heaven's sake. What it needs is 
political legitimacy. Institutions like the World Bank, institutions 
like the EBRD, membership in the OSCE, those kinds of things give 
legitimacy. And that's where the pressure needs to come.
    So I'll stop with that. Thank you.
    Ms. Helwig. Thank you, Kate. Boris.
    Mr. Shikhmuradov. I will try to be short. I'm asked about my 
family's situation many times. I've been asked the same question, if I 
thought my father had been dead or alive, because we never have heard 
anything about him since in January 2008. Today here for the first time 
I will say no. I don't think he's alive. I say not because I have lost 
my hope, but because unfortunately, I have gained some bitter 
experience. Actually we all know that there's absolutely no way to 
bring the leadership to justice for human rights violations if it is 
somehow linked with security. Because they want to continue dialogue 
with Turkmenistan, they get so mad when asked about human rights 
violations. The international community prefers not to so what can be 
done? What we can do?
    My father is a Russian citizen, so he has a Russian passport. He 
has always been a Russian citizen. What did the Russian government do 
to provide consular and legal assistance to this citizen? Nothing. 
About 30 letters on Russian minister of foreign affairs saying that 
they unable to obtain information about my father. They ignore its 
obligations and they ignore all OSCE recommendations. They ignore 
universal human rights declarations and they ignore United Nations 
General Assembly resolutions that was offered several times, like, I 
think, two or three times a resolution was adopted with a number of 
recommendations, and none of them was accepted and none of them was 
implemented.
    So we keep on asking the diplomats, we keep on asking the 
government officials from different countries, we keep asking 
diplomatic missions to international organizations, and we keep asking 
them for their assistance, but unfortunately, the government of 
Turkmenistan and the president, President Berdimuhammedov and his 
foreign minister, the one whom we talked about many times, they don't 
care. They don't care about what people say about that.
    Our family is not the only one. In November 2002, more than 60 
people were arrested. It was of--that so-called assassination attempt 
on President Niyazov's life.I don't know all of them, but universally, 
I know about, I would say, six or seven families who are in absolutely 
same situation as we are. There are many rumors about some of prisoners 
being dead already, being buried already, being--like, being thrown out 
of jails like--because sometimes they say that they don't let relatives 
even have a chance to see their fathers and brothers for the last time. 
Sometimes they just throw bodies out of the gates and just let 
relatives take it. So some of these families are outside, some of them 
live in the U.S. here. I know one family, they stayed in Boston, and I 
don't know why, but, I think you talked to them, but they did not come 
here because they have somebody left in Turkmenistan. Even being 
Americans already, people are afraid of talking too much.
    Some of the families are in Turkmenistan. Those are in a very, very 
difficult situation because they don't know even about their chances, 
like I have a chance to sit here in front of you and talk to you, but 
those people who are in Turkmenistan, they don't even know about what 
is happening outside. They don't even know that somebody cares about 
political prisoners. These people, they definitely--I think that they 
already lost their hope. I don't know, what can be done to change the 
situation because all these experts who just now reported to us here, 
they're absolutely right. Sometimes it is very difficult to believe in 
what they say, but yes, it is--it is definitely right.
    What they say about the recommendations to national governments, to 
international organizations, this is all right things to do. But will 
it happen or not? Nobody knows, and it depends on how--it very much 
depends on how the public will react. This is actually the answer to 
that question. What can be done? This situation should be discussed 
publicly.
    As much information needs to be made public about the situation in 
Turkmenistan. It is difficult to get information from inside the 
country, but there are some people who risk their lives delivering 
important information about the current situation in the country 
because being outside, like sometimes we don't know exactly what is 
happening there, and we very much rely on those people who deliver 
information.
    Ms. Helwig. Thank you. Thank you, Boris.
    Mr. Shikhmuradov. Thank you.
    Ms. Helwig. So I'd like to open it up for comments and questions 
from the audience. When you speak, if you would identify yourself, and 
please speak up, because I'm afraid I don't have another microphone to 
pass around.
    Questioner. You made me think about the idea of communication with 
people in Turkmenistan, because as governments do respond, the 
epicenter of the information comes from Turkmenistan, right? People 
they have no idea. So it means that they can react to what's happening. 
So by using international organizations, it seems that it doesn't work, 
or you see actually no results, and it somehow--I wouldn't say it's 
ineffective, but maybe we should think about another way how to maybe 
contact the people who are inside by using social science.
    Mr. Shikhmuradov. You know, whatever is happening now in Ukraine 
could never happen in Turkmenistan because they would never allow more 
than two, three people to get together. So they just start killing 
immediately. They don't let the situation go that far. No, so if you 
mean social networks, social networks are not allowed, even if 
technically it is possible, because now, there are hundreds of 
technical ways to use social network websites, but people are so much 
afraid that nobody would take that risk.
    Ms. Denber. I tried to be very brief during my presentation, so I 
didn't talk about the limits that are put on Internet interaction in 
Turkmenistan. There are people online in Turkmenistan. I don't want to 
give the impression that people aren't online, that it's totally cut 
off from the Internet community. It's highly regulated and highly 
restricted in Turkmenistan. Internet connection is quite expensive in 
Turkmenistan. You have to assume that it's fairly heavily monitored 
because of the the monopoly provider. Internet cafes are also highly 
from what we understand, are also highly regulated. You have to provide 
your passport, and you have to sign in, provide your passport 
information, et cetera. Websites are blocked--many websites--not all 
websites, but many websites are regularly blocked--I mean key websites.
    But there is still--from what we understand, there is still 
communication through Facebook now from Turkmenistan, through--I think 
also through Contactia and through other, like, Russian-language 
platforms. One of the reasons why we know that is because--is as you 
might remember, I mentioned briefly a couple of minutes ago that there 
was a Radio Free Europe/Radio Liberty reporter in Turkmenistan who was 
briefly arrested and then released. When we were trying to understand 
what it was that led to his arrest, because he didn't write--he 
didn't--the stuff that he reported on wasn't terribly--wasn't terribly 
anti-government or critical. You never really know in Turkmenistan why 
someone gets arrested, but one of the--one of the potential theories 
was that he had written an article having to do with women wearing 
headdress, wearing Islamist headdress, like her scarf, tied this way 
and not the typical Turkmen way, or the traditional Turkmen way, I 
mean.
    It was on Radio Free Europe/Radio Liberty's website, and it 
generated a huge response. Many people were commenting on it, and it 
seemed that they were from inside Turkmenistan. The theory was that 
this guy's in trouble. He's causing trouble because he's getting--he's 
getting people involved in a debate. I'm giving you that example just 
to show that people are online, but it's very difficult. So using soft 
power is difficult. It's also potentially very dangerous for people who 
would the recipients of soft power. That doesn't mean that one 
shouldn't--I think that does not mean that international organizations, 
that foreign entities, intergovernmental organizations, it doesn't mean 
that they should not try to use social networks to spread information 
about human rights, about what's happening in the outside world. I'm 
saying that they are--I think we should all be aware of what the--what 
the dangers are for people who are actually inside Turkmenistan to 
using that.
    Ms. Fitzpatrick. The whole issue of the social media and the 
Internet is something I followed quite a bit with Turkmenistan. There's 
actually people who check in on Foursquare from Ashgabat, if you can 
believe it. They usually check it in the TV tower. But then they 
publish Instagram photos of their shopping because they're the children 
of the--of the officialdom. There are people that publish YouTubes of 
their classrooms, but they can afford the expensive Internet 
connection. There is people on Twitter. The ambassador of the United 
States started an account on Mail. Ru because that embassy in Ashgabat 
that we have has enormous investment and trying to do social media. He 
has 8,000 friends, OK? And now maybe half of them are FSB agents--but a 
lot of them are 18-year-old kids who want to go to school in the United 
States.
    That's the problem with this theory of change through the Internet 
is that a lot of what it drives in is the desire to leave, and people 
do leave. They only get as far as Kyrgyzstan, but it's that much 
better. They don't come back. They're not a force for social change. 
There's a whole theory of how the middle classes in these countries, as 
they become more affluent and as they use the Internet, maybe they use 
it for their cats, but eventually they'll rebel--well, guess what. It 
doesn't happen that way in these countries. They become a force to prop 
up the government more, and--unlike some of the Arab Spring countries. 
Berdimuhammedov knows that, and that's why he hands out 2,000 free 
iPhones to students going to Turkey. They might go on, Facebook or 
whatever, but they're wired into his regime. We really have to take a 
second look at that whole theory of trying to--I'm all for using it and 
I do use it, but I think you have to look at what you are strengthening 
when you empower people with social media. It's not necessarily the 
factors of change that you'd want to see.
    Mr. Zalmayev. That's Evgeny Morozov's line, right, that he's kind 
of been arguing?
    Ms. Fitzpatrick. No, that's not Morozov's line. Morozov has a whole 
different line he's soft on the regimes, in the end, because he thinks 
they're so powerful that we should concede.
    Ms. Helwig. OK. Cathy.
    Questioner. Cathy Cosman, U.S. Commission on International 
Religious Freedom. I'm very glad there's been some discussion of 
religion. I believe you were referring to hijab, not Islamist 
headdresses, but hijabs which are traditional----
    Ms. Denber. Turkmen--typical--traditional Turkmen pattern, but tied 
under the chin. Also, there has been a U.N. special rapporteur who went 
to Turkmenistan, in 2008, also went to Hungary. She wrote, a upbeat 
report.
    I would also say that the group that most of these countries in 
Central Asia with majority Muslim populations, their religious laws are 
aimed at the majority population. Of course, it affects all religious 
groups, but if you--if you're a politician in any country, you think of 
what is the group which can potentially offer political--can be 
mobilized for political resistance. That's obviously the majority of 
religion in the majority of the cases. So while here we may hear more 
about problems of conscience, objectively speaking, I think it's true 
that it's Muslims who feel the majority of the--who feel the impact of 
the restrictions, the multiple restrictions on religion law.
    I do think it's also significant that when Berdimuhammedov was on 
his great charm offensive back in 2007, he did release seven political 
prisoners, including the former grand mufti of Turkmenistan, who had 
been accused of alleged involvement in the alleged assassination plot 
against Niyazov. We--the commission on which I serve on the staff, we 
met both with Berdimuhammedov and with Ivadullah, the ethnic Uzbek 
former grand mufti of Uzbekistan, and in fact, we participated in a 
celebratory dinner to mark his release from prison. Since then he's not 
been allowed to return to his Uzbek majority region bordering 
Uzbekistan. He now serves, I believe this is still true, as an informal 
adviser to the committee on religious affairs, where he's still an 
adviser to that group, which of course implements the religion law, 
such as it is, which is pretty restrictive.
    I wanted to call attention also to one other case of someone who 
was returned to Turkmenistan from Sweden in the--in 2011 under the 
mistaken belief by the Swedish government that all was OK now in 
Turkmenistan under Berdimuhammedov--namely, this 32-year-old son of two 
correspondents from RFE/RL. His name is Keymir Berdiev. He had been 
living in Russia I guess for 10 years. Maybe he'd lived in other 
countries in Western Europe, and he ended up in Sweden hoping that he 
was safe there. Unfortunately, he was not. He was forcibly returned. 
When he received the news that he would be forcibly returned, he tried 
to commit suicide. Nevertheless, he was returned. Some of us tried to 
prevent that unsuccessfully informally. So I just wanted to add to the 
fact that as far as I know, no one has heard anything further from him. 
I don't know whether anyone is here from RFE/RL, but I would hope that 
they continue at least to try and find out about his situation because 
both of his parents were prominent correspondents from RFE/RL.
    Finally, I did want to also mention that forced labor in cotton in 
Turkmenistan is also a problem, and I would hope that human rights 
groups pay some attention to that. Of course, it's gotten deserved 
attention in Uzbekistan and to some extent in Tajikistan, but as far as 
I know, Turkmenistan has been left off the list.
    Ms. Denber [continuing]. Thanks, Cathy. There are actually a lot of 
things that I would have liked to have talked about in this overall 
introduction to Turkmenistan that I made.
    Forced labor in cotton was certainly one of them. We're absolutely 
aware that it's an issue. There's been good documentation about it, and 
it's publicly available now by an--by an NGO. It's managed to give 
information out. Another issue that we didn't get to talk about that--
but that affects many--the lives of many people in Turkmenistan is 
unfair compensation for house demolitions that are demolitions that are 
done in order to--either for, beautification or urban renewal or just 
the construction of parks and monuments and such. Actually, Human 
Rights Watch has documented--we managed a couple of years ago to 
actually interview people whose homes were expropriated from them and 
with very--with very poor levels of compensation and in some cases no 
compensation at all.
    When you have a political system that is utterly unaccountable, 
it's no surprise that the lives of ordinary people who have nothing to 
do with politics are impacted, you know, because they can't get any 
interaction that they have to have with their local government, just 
for everyday things, whether it's your pension; whether it's, your 
house; whether it's demolition; whether it's, your bills, everything is 
subject to arbitrary--to the arbitrary actions of local officials.
    If that's the way it is for people in everyday life, you can 
imagine what it's like for people who have in any way distinguished 
themselves by having the courage to be critics or having the bad luck 
to be a rival.
    Ms. Fitzpatrick. We probably should have started with this, rather 
than ended with this. I mean, we could endlessly talk about the cases, 
but I think we really need to cut to the heart of why our country does 
not do anything about Turkmenistan, because it can't. I mean we're 
heavily reliant on the access through airspace in Turkmenistan to 
Afghanistan, whether it's the Northern Distribution Network, which is 
the passageway for all the nonlethal material to go to the troops, the 
NATO troops, and in Afghanistan we pay hundreds of millions of dollars 
to be able to land, fuel and then take freight into Afghanistan.
    Some hope was held out by some officials that we've been, raising 
these cases with for many years that things would get better as we 
withdrew troops and we'd start going in the opposite direction and pass 
through the NDN.
    I think that probably that's not going to change, at least in the 
near term, because I think that, you know, we will have to keep 
supplying--we just gave a huge tranche to Afghanistan itself. We're 
trying to do development work, you know, provide schools and food and 
so on, and arrange electricity transfers in the region and so on. I, 
that relationship's going to hold.
    It's also a listening post on Iran, and one of the big revelations 
that came from WikiLeaks and probably ruined a lot of information 
channels--when things that, like Iranian truck drivers would drive in 
across the border, into Turkmenistan, which for them was a holiday--I 
mean, try to imagine your life if that was your holiday--and then they 
would, you know, pump them for information.
    I don't think this is going to change. What I think you can do with 
these regimes, though, is you could stop conferring legitimacy on them. 
You can't always do it by speaking out, but you can do simple things, 
like one of the things that I find really most egregious is that 
Berdimuhammedov's--one of his most prized possessions is a picture of 
himself with Obama and his wife at the Metropolitan Museum of Art in 
New York. It's kind of a photo bomb picture, if you will, because Obama 
didn't actually meet with Berdimuhammedov.
    He didn't actually sign any pipeline deals with him. He actually 
got nothing out of him for, all--the whole time he's been in office. 
But there was this nice reception where there was some Turkmen jewelry 
on display, very nice Turkmen jewelry. I went myself. So that sort of 
thing, that social milieu that we hope would be transformative, in fact 
is used to legitimize the regime. I mean, you have horrible things like 
German doctors going and performing an operation on a hapless fellow 
with the dentist in chief there, Berdimuhammedov himself, who has a 
medical degree--operating on a guy. Imagine the German medical 
profession going and taking part in a charade like that.
    These kinds of legitimizing exercises that we can control and we 
don't have to do, we don't have to lay these optics on with this 
regime, and I think my colleagues and I disagree about this, and we can 
debate it, but I think we need to pare down some of these human rights 
festivals that we have in Ashkhabad, where we send Oxford professors 
and, professors from Missouri to go and teach human rights to the same 
20 officials that have already been in the last zillion sessions. I 
mean, if I see that woman with the beehive hairdo once again getting 
trained by one of our, I wish I had a dollar for every time I've seen 
that kind of thing happening.
    We can still engage with them. We can find ways to sort of have, 
you know, like the ABCs, Annual bilaterals. We have those things. Maybe 
we could cut down on the sort of shows. The oil--and the annual oil and 
gas why do we go to that? We don't have a pipeline. We didn't get a 
pipeline out of these people for 15 years. Why do we keep going to the 
conferences?
    But I think we can look for opportunities like that and help 
undermine their standing in the world, which they achieve when--when 
we--when they can have pictures with us.
    Ms. Helwig. OK. Maybe we have time for a couple more questions. Is 
there anybody else that would like to ask a question?
    Questioner. My name is Chari. I am a Turkmen native. So I used to 
work for the embassy. I want to talk--when we talk about Afghanistan 
Turkmen society, I think it's important to mention one way that people 
at this point it's a very unengaged society, because since 
Berdimuhammedov came into power. He understood perfectly that yet it 
frankly happened because of economic expansion. Plus because it came 
from even Afghanistan. The main threat to power is educated people. He 
understood this perfectly, and from his very first day, his policy was, 
you know, aimed at completely, completely education. You know what he 
did. He changed 10-year education to nine-year. He, basically, all of 
his classes was about but at the same time many teachers was forced out 
of the country. He removed mathematics from the curriculum. So they 
removed it--totally removed this subject. It is not even possible to 
compare with any other It is completely, completely uneducated society. 
It's not only that they have economical message. This is the policy 
which completed their mission. This is what going on is.
    What is interesting in this--knowing that--keeping that in mind, 
how is this possible? And the government--you know, there is basically 
governance. This uneducated are taking government? How they can manage 
to keep it a secret? Where is? It's an impression somebody from other 
planet taking care of them. Even though because if the culture and 
society, you cannot hide this stuff, but it's not and I know that those 
who take care of prison changed in Turkmen society rumors going 
between. It's not possible, you know, to--you cannot even hear look, I 
saw him over there. He was there, you know. It is not possible in this 
society. It's--what is amazing is, who is charge of that is so 
carefully kept secret. Nobody can know what happened to them and there 
isn't--because there is no way to learn
    Ms. Helwig. Anybody want to comment?
    Ms. Denber. I'd like to make a couple of comments. I think that's 
a--that's an excellent point that--that's the key question, I think, 
that you raised, Chari, and that's how can they keep up this charade of 
pretending they don't know, because I think that our campaign Prove 
They Are Alive is to make the government acknowledge--is to make it--
have some kind of official acknowledgement about the fate and 
whereabouts of these people disappeared. Of course there's all kinds of 
information flies around through informal networks. I've talked to 
families--at least one family who talked about how she got--not from 
this campaign but from another person who had been imprisoned and who 
has recently died in prison--how they managed to get information out 
about--how she managed to get--how she managed to get information about 
her father and what kind of information--who was imprisoned and what 
other kind of information managed to get out about other prisoners in 
that prison.
    Through informal networks they change the guards very frequently 
precisely in order to prevent information from getting out, precisely 
to keep people in a state of confusion. So there's a whole elaborated 
mechanism for keeping information secret, for keeping people in 
confusion. Despite that system, information still gets out. It gets out 
informally. I would not be surprised if many of the people who are in--
who are the--who are featured in this campaign--I would be--not be 
surprised if their families already have a lot of information 
informally.
    But that's not the point. Of course you can get information 
informally. The point is that the government has to acknowledge it.
    What I think is interesting is how the government avoids the issue. 
We were talking before about how, whenever the subject of the 
disappeared comes up, the response on the part of the government--well, 
the government--I think you're right that it's a bit even odd to call 
it ``government.'' The response on the part of the authorities, 
Berdimuhammedov and the people who are--and the officials who are under 
him, they get hysterical. They yell. They scream. They say, these 
people aren't--they're not political prisoners and they're not this, 
they're not that. You know, they're criminals, blah, blah, blah.
    That's not the point. The point isn't who they are or why they're 
in jail. The point is, are they dead? Are they alive? Where are they? 
Why can't they talk to their families?
    They won't engage. I mean, it's a game of--kind of like a game of 
denial and a game of mirrors.
    Also, there's another theory is that if Berdimuhammedov were to 
acknowledge that these prisoners--acknowledge anything about them, it's 
like--it's almost like acknowledging that they were--their own 
complicity, because if they were if they died and if they died under 
suspicious circumstances, then someone's head has to roll. Someone's 
responsible for that. If they acknowledge--and if they acknowledge that 
they've been basically officially disappeared for the past--well, how 
long has he been in office now? Since 2007? So for the past seven 
years--if they have--if they acknowledge that for the past seven years 
that these people, they were disappeared, we did have information about 
them but didn't reveal it, well, then they're complicit in a pretty 
serious human rights violation.
    Ms. Helwig. Kate, did you want to comment?
    Ms. Watters. Yeah, I mean, just absolutely I think you've hit the 
issue on the head. It's this combination of systematic destruction of 
an educational system, which leaves a society where you don't have a 
lot of people who are engaging in critical thinking in the way that we 
understand it--I think the other issue is fear.
    I think that when the regime, the authorities, the president, 
whoever it is, when they behave so atrociously and the information that 
we have about the disappeared is horrific, the details--the information 
is horrific, the status of the prisons is horrific, the location of the 
prison is horrific, and some of these people are in Novadan Daipau, 
which is in the middle of a desert, where it's over 40, 50 degrees 
Centigrade in the summer and freezing cold in the winter, and we don't 
know--do they have electricity, do they have air conditioning, do they 
have access to water, do they have access to--I mean, the information 
that is out there is so horrific that the notion that you would then 
risk speaking about that and risk that--not for yourself, maybe, but 
for your loved one, whether they're inside the system or could be put 
into that system, is enough to keep you quiet.
    I think the other piece is the legacy of the Soviet period and the 
legacy of Stalinism and the legacy of all the--the people who are 
educated, the generations that do have those--that educational 
knowledge base, they remember that. They remember Stalinism. They 
remember the disappeared from before. That makes for a very toxic mix.
    Ms. Helwig. One final question?
    Questioner. Just maybe a quick reaction. Akma from Freedom Now. The 
two points that--just to continue on the discussion on social 
networking and why it doesn't work and then the level of literacy, and 
coming from Uzbekistan, working on Uzbekistan, I can compare two 
countries, perhaps, and I think you don't have those problems in 
Uzbekistan. Social networking is still fine. Yes, some of the 
opposition are blocked, their website are blocked but generally can--
people use Facebook, YouTube. YouTube has lots of clips of people of 
the government, Karimov, his family and others, and you can watch that. 
And is Facebook--those websites that are blocked in Uzbekistan are 
posting on Facebook as a note, and everyone can see it and read it if 
he or she wants.
    At the same time, literacy level is relatively better, maybe. Yeah, 
there is not that severe clash on education, though social sciences are 
dying. It's known.
    But I think the second factor that Kate brought up is this fear 
that is more important, that keeps people from speaking out. If you 
recall, everyone who works in this field know that at the very early 
stages of independence of Central Asian countries, scholars were saying 
that the fact that the level of literacy is high gives hope that the 
level of democratization would be fast, that there will be some good 
hopes that it will work out, because I think the fear of--the fact of 
fear is really high. I even if a person is very educated, he knows from 
the social networks and information the level of--the atrocious human 
rights violations happening on a daily basis, still people are very, 
very afraid of speaking out and maybe mobilizing against the government 
because of the persecution.
    Ms. Helwig. Thank you.
    Would any of our panelists like to say anything in closing?
    Ms. Watters. I would like to just thank you all for coming, but I 
also want to say if anyone has any information about disappeared, any 
information that you think could be useful to the campaign, please do 
contact us at our website, provetheyarealive.org, and at an email 
address, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cebebca1b8abbaa6abb7afbcabafa2a7b8ab8ea9a3afa7a2e0ada1a3e0">[email&#160;protected]</a> Please email us, write us, 
contact us, call me, take my business card. We're looking to gather 
information. So any way that you feel you can be useful, we'd be 
grateful for that.
    Ms. Fitzpatrick. I have, I guess, a question. We were discussing 
the Magnitsky list idea. I'm all for trying to add to the Magnitsky 
list, which we can now do because of other developments, but I wonder 
if you could make a Magnitsky list for Turkmenistan, because the people 
who did the persecutions themselves, some of them are disappeared, like 
Rejepov, and so on. It'd be interesting to try to make a list of who 
you think is responsible and then see if you can then add them. But I'm 
just wondering if that approach is useful as the other approaches that 
focus on the victims rather than the prosecution of the perpetrators. 
It's just a question of tactics. I--just if you have an opinion on 
that.
    Mr. Shikhmuradov. Well, I just want to say I think that there is a 
human dimension, political dimension and economic dimension. So in the 
human dimension in Turkmenistan, zero--nothing? Political dimension 
also--it is not the strong point, because, like this poor minister of 
foreign affairs, he is actually the only one who who can speak and 
represent his country. Again, he's being attacked like everywhere he 
goes. He has to say that no--that foreign diplomats, they don't speak 
about human rights and political problems in Turkmenistan publicly, but 
informally of course they try to raise these issues, which makes him 
very nervous, and he--like Peter was there, because--like the--one of 
the most interesting things happened--it was in Brussels or in Geneva 
where the----
    Mr. Zalmayev. In Maastricht.
    Mr. Shikhmuradov [continuing]. Ah, Maastricht, yes, when he saw--
when he came into the big hall or big conference hall, and he saw two 
Turkmenistan opposition members, and he started shouting that the 
building is in danger because terrorists are there. So he was trying to 
bring public security officers there.
    So like this is Turkmenistan's policy--political dimension, 
nothing. So only economic issues that keeps this country alive, this 
regime alive. I'm not speaking about Turkmenistan's economy itself, 
because it is corrupted, it is definitely not transparent, like 
transparency level's zero, but it continues living because of the 
foreign companies, like--including some oil and gas giants and some 
heavy machinery producers and some oil and gas traders and the 
development--who agree to come to Turkmenistan and to work there and to 
play by the local rules.
    So this is what we should attack. This is what we should target our 
attention to. I think that if Turkmenistan government--they don't care 
about what people say about them. They accept all this strange and, you 
know, bizarre, like laws, rules, regulations changing months and 
changing, like--making golden statues of the president and then moving 
it around the city from one place to another. They don't care. They 
just do whatever they want to do.
    But why American companies don't care about what people say about 
all this, I don't know. the economic regulations keeps this regime 
alive.
    Ms. Helwig. OK. Well, I would like to thank everybody very much for 
coming and I think we'll end on that note. Thank you.

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
